No. 21-202
IN THE

Supreme Court of the United States
MYLAN LABORATORIES LTD.,
Petitioner,
v.
JANSSEN PHARMACEUTICA, N.V.,
and
ANDREW HIRSHFELD, Performing the Functions and
Duties of the Under Secretary of Commerce for Intellectual
Property and Director of the United States Patent and
Trademark Office,

Respondents.
CERTIFICATE OF SERVICE
I, Matthew S. Hellman, hereby certify that I am a member of the Bar of this Court,
and that I have this 13th day of September 2021, caused three copies of the Brief of the
Association for Accessible Medicines as Amicus Curiae in Support of Petitioners to be
served via overnight mail and an electronic version of the document to be transmitted via
the Court’s electronic filing system to:
Robert Thomas Smith
Katten Muchin Rosenman LLP
2900 K Street NW, Suite 200
Washington, DC 20007
(202) 625-3616
robert.smith1@kattenlaw.com

Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Mylan Laboratories, Ltd.

Counsel for Andrew Hirshfeld, et al.

Pratik A. Shah
Akin Gump Strauss Hauer & Feld LLP
2001 K Street, NW
Washington, DC 20006
(202) 887-4210
pshah@akingump.com
Counsel for Janssen Pharmaceutica, N.V.
/s/ Matthew S. Hellman
Matthew S. Hellman

